<html>
<title> - NOMINATION OF DAWN A. TISDALE</title>
<body><pre>[Senate Hearing 108-528]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-528

                     NOMINATION OF DAWN A. TISDALE

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                 ON THE

   NOMINATION OF DAWN A. TISDALE, OF TEXAS, TO BE COMMISSIONER, U.S. 
                         POSTAL RATE COMMISSION

                               __________

                             APRIL 29, 2004

                               __________

      Printed for the use of the Committee on Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
94-484                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Deleware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas
           Michael D. Bopp, Staff Director and Chief Counsel
                    Johanna L. Hardy, Senior Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
           Jennifer E. Hamilton, Minority Research Assistant
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Akaka................................................     2
    Senator Lautenberg...........................................     8

                               WITNESSES
                        Thursday, April 29, 2004

Hon. Eddie Bernice Johnson, a Representative in Congress from the 
  State of Texas.................................................     3
Dawn A. Tisdale, of Texas, to be Commissioner, U.S. Postal Rate 
  Commission.....................................................     4

                     Alphabetical List of Witnesses

Johnson, Hon. Eddie Bernice:
    Testimony....................................................     3
Tisdale, Dawn A.:
    Testimony....................................................     4
    Biographical and professional information requested of 
      nominees...................................................    11
    Pre-hearing questionnaire and responses for the Record.......    15

 
                     NOMINATION OF DAWN A. TISDALE

                              ----------                              


                        THURSDAY, APRIL 29, 2004

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Akaka, and Lautenberg.

              OPENING STATEMENT OF SENATOR COLLINS

    Chairman Collins. The Committee will come to order.
    Good morning. Today the Committee on Governmental Affairs 
is holding a hearing to consider the nomination of Dawn Tisdale 
to be a Commissioner on the Postal Rate Commission. The 
Commission reviews the Postal Service's requests for new 
domestic mail rates, fees, and mail classifications and makes 
recommendations to the Postal Board of Governors. The 
Commission may also propose changes in mail classification to 
the Postal Service, investigate complaints concerning postal 
rates, fees, mail classifications or services that involve 
issues of nationwide significance, and hear appeals from postal 
customers concerning decisions to close or consolidate retail 
post offices. In short, the Commission is instrumental in 
helping the Postal Service meet its financial and operational 
challenges.
    The good news for Mr. Tisdale is that he would join the 
Postal Rate Commission at a time when the very direction of the 
Postal Service is being debated and reconsidered. The bad news 
is that he will be called upon to help bail out a ship that is 
taking on water fast.
    The Postal Service is the linchpin of a $900 billion 
mailing industry that employs 9 million Americans in fields as 
diverse as direct mailing, printing, catalogue production, 
paper manufacturing, and financial services.
    David Walker, the General Accounting Office's Comptroller 
General, has expressed concern about the Postal Service's more 
than $90 billion in unfunded liabilities and other obligations. 
He has also pointed to the need for fundamental reforms to 
minimize the risk of a significant taxpayer bail-out or 
dramatic rate increases.
    Earlier this month the Committee concluded a series of 
eight hearings taking an in-depth look at the 35 legislative 
and administrative recommendations of the President's 
Commission on the U.S. Postal Service. In its final report 
issued last July, the Commission described the need for a 
vigilant, broadly empowered and independent Postal Regulatory 
Board. Among other things, the Commission recommended that the 
current rate-setting process, often described as lengthy and 
litigious, be replaced with a more streamlined process, that 
the regulators should have the authority to clarify and refine 
both the scope of mail monopoly and the universal obligation, 
recommendations that I would note I disagree with, and that 
members of the regulatory board should be chosen solely on the 
basis of their technical qualifications and professional 
experience.
    It has been more than 30 years since the Postal 
Reorganization Act was passed. The time has come to reassess 
how the Postal Service should adapt to its customers, 
competitors, and technology and best fulfill its mission in the 
21st Century. The need to preserve a strong and universal 
Postal Service is clear, particularly in States with large 
rural areas, such as my home State of Maine. Within days, 
Senator Tom Carper and I plan to introduce a postal reform bill 
that will incorporate many of the Commission's recommendations.
    Mr. Tisdale, you have several years of valuable experience 
with the Postal Service. I look forward to hearing your 
thoughts this morning on what you believe to be the appropriate 
role of the Postal Service's regulator.
    Before I call on Congresswoman Johnson to introduce our 
nominee, I would like to turn to my distinguished colleague, 
who has a great interest in postal issues and contributes so 
much to our Committee. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. I again 
want to say it is so good working with you as always; I have 
enjoyed serving with you.
    I also want to add my welcome to Congresswoman Johnson. I 
am so happy that you are here to introduce our Commissioner. 
And welcome to Dawn Tisdale, who the President has nominated to 
serve as a Commissioner of the U.S. Postal Rate Commission.
    As Senator Collins noted, your nomination comes to this 
Committee at the culmination of a series of hearings on the 
recommendations of the Commission on the U.S. Postal Service. 
And, as Senator Collins said, there is a bill being crafted and 
I certainly want to add my support to that bill.
    We heard from many people at the hearings, all of whom are 
interested in the continued stability and viability of the 
Postal Service. Achieving that goal will require the dedication 
of individuals such as yourself who will be called on to make 
tough decisions. Judging by your biographical information you 
submitted to the Committee, your career with the Postal Service 
provides you with the experience to do just that.
    One of the recommendations made by the Postal Commission 
and one that I expect will be in a postal reform bill will be 
to significantly strengthen the Postal Rate Commission. I am 
hopeful that if confirmed, and I am sure you will be, you will 
draw on your experience as a postmaster, postal supervisor, and 
letter carrier, especially when the Postal Rate Commission 
reviews product and operational matters.
    Another recommendation of the Postal Commission which also 
should be a part of the postal reform is to create a greater 
financial transparency within the Postal Service. As a retired 
postal manager, you understand the importance of timely 
financial information and I hope you concur that the 
flexibility being sought by the Postal Service to set rates 
demands that the Postal Rate Commission has access to on-time 
and current financial data.
    Mr. Tisdale, I believe you will bring a perspective to the 
regulatory board which is not represented, so that is important 
to all of us.
    Madam Chairman, I want to thank you again, and I look 
forward to our discussion with this nominee.
    Chairman Collins. Thank you very much, Senator.
    It now gives me great pleasure to call upon our colleague 
from the House side, Representative Johnson, to introduce the 
nominee. Thank you for taking the time to be here this morning.

 STATEMENT OF HON. EDDIE BERNICE JOHNSON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Ms. Johnson. Thank you very much, Madam Chair. It is an 
honor and a pleasure to be with you today and I bring the 
warmest greetings to you and the Members of the Committee on 
Governmental Affairs from the House of Representatives and my 
constituents in the 30th Congressional District of Texas.
    It is my great honor and great pleasure to introduce Dawn 
Tisdale to the Senate Committee. This morning you are 
considering his nomination for the U.S. Postal Rate Commission 
and I am certainly appreciative.
    In my comments I would like to commend President Bush for 
nominating Mr. Tisdale to be a commissioner and I would like to 
acknowledge Senator Daschle's recommendation to him for this 
outstanding nominee. The Senator recognizes that the nominee 
certainly has the knowledge and experience to take on one of 
the most challenging positions in the Executive Branch. And I 
applaud you, Senator Collins and Senator Akaka and all the 
Members of the Committee, for the wisdom and grace that you 
have shown considering Mr. Tisdale's nomination.
    He not only has the qualifications to serve on the Postal 
Rate Commission. He also possesses the qualities needed in a 
commissioner. He is a retired postmaster. He was postmaster 
from 1989 to 2000 in Smithville, Texas and he faithfully 
served. And prior to his tenure as postmaster he served as 
manager of employee relations in Waco, Texas, my hometown. And 
it might sound a little parochial to say this but he has a 
great reputation wherever he has served. He started as a postal 
delivery person and worked up the ranks and he spent a total of 
35 years with the Postal Service.
    So I have a great deal of admiration for him because I have 
observed him over the years. He is a family man. He is a church 
man. He is a community man. He has a very quiet demeanor but he 
does not miss much that comes by.
    So I thank you so very much for the opportunity to be here 
this morning and I hope that he will be confirmed. Thank you.
    Chairman Collins. Thank you very much, Congresswoman. I 
know that you have a very busy schedule today so if you would 
like to be excused at this point, that would certainly be fine 
with us. We do appreciate your strong endorsement of the 
nominee and your taking the time to introduce him this morning. 
Thank you.
    Mr. Tisdale has filed responses to a biographical and 
financial questionnaire, answered the prehearing questions 
submitted by the Committee, and has had his financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made part of the hearing 
record, with the exception of the financial data, which are on 
file and available for public inspection in the Committee's 
offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, so Mr. 
Tisdale, I would ask that you stand and raise your right hand 
so that I can administer the oath.
    [Oath administered.]
    Chairman Collins. Mr. Tisdale, I understand that you have a 
statement that you would like to deliver at this time and I 
would ask that you proceed.

TESTIMONY OF DAWN A. TISDALE,\1\ OF TEXAS, TO BE COMMISSIONER, 
                  U.S. POSTAL RATE COMMISSION

    Mr. Tisdale. Thank you. First of all, I would like to thank 
you, Senator Collins and Senator Akaka, for allowing me this 
opportunity to come before you. I would further like to thank 
the President for his nomination and Senator Daschle for his 
support of my recommendation and the nomination. And, most of 
all, I would like to thank the Hon. Eddie Bernice Johnson for 
being there from the very beginning and for always supporting 
this particular nomination.
---------------------------------------------------------------------------
    \1\ The biographical information and prehearing questions appear in 
the Appendix on pages 11 and 15 respectively.
---------------------------------------------------------------------------
    Just briefly I would like to recap some of my postal 
career. I was in the Navy from 1962 to 1966. Following that, 
within a couple of months of getting out of the Navy, I was 
called to work for the Postal Service and I began work as a 
letter carrier in Austin, Texas. I worked there as a letter 
carrier for about 14 years, got involved in the union and 
eventually became vice president of Local 181 of the National 
Association of Letter Carriers in Austin, Texas. During that 
time I was also a part of two of the negotiating groups for 
local labor contracts with the union.
    Following that, I went into management and worked in 
delivery growth. In delivery growth we were interested at that 
point in convincing people that we should go to centralized 
delivery points, rather than to door-to-door delivery and that 
is a hard sell for a lot of people, but we managed to do it and 
did it successfully.
    I followed that up by working at one of the stations in 
Austin, the largest station there at the time, as a supervisor 
and actually reaped some of the benefits of some of the 
negotiations that I had gone through while I worked with 
delivery growth.
    I followed that by working with employee involvement as the 
Postal Service began to change the way it related to its 
employees and during that time we worked on showing labor and 
management how to better deal with each other, how to do joint 
problem-solving, how to prioritize the problems that they 
jointly faced.
    I followed that by working in labor relations for a long 
time and moving on to alternative dispute resolutions.
    After that I worked in Waco as manager of employment and 
training and when that sectional center was closed I moved to 
the job as postmaster in Smithville. I stayed there from 1989 
to 2000. In between those years I came back and worked in labor 
relations again in Austin and also spent some time working as a 
manager of distribution operations in the plant because I 
wanted to learn that operation, also.
    I retired in 2000 from Smithville as postmaster and enjoyed 
a very long and varied career with the Postal Service.
    Again I would like to thank you for the opportunity to 
answer your questions and at this time I would entertain 
whatever questions you have.
    Chairman Collins. Thank you for your statement. I will 
start my questioning this morning with the standard questions 
that we ask all nominees who come before our Committee.
    First, is there anything that you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Tisdale. Nothing at all.
    Chairman Collins. Second, do you know of anything personal 
or otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Tisdale. Nothing at all.
    Chairman Collins. And third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Tisdale. Yes.
    Chairman Collins. We will now have a round of questions, 
limited to 6 minutes each.
    Mr. Tisdale, your experience gives you an insider's 
perspective of the Postal Service that is of great interest to 
me as we seek to deal with many of the issues raised by the 
Presidential Commission. I noticed in your resume that you were 
the postmaster of Smithville, Texas and I was curious how big 
Smithville, Texas is?
    Mr. Tisdale. Smithville has about 3,900 people inside the 
city limits. There are about 10,000 in the area.
    Chairman Collins. It sounded like a smaller community to 
me, typical of the many rural communities that dot the State of 
Maine.
    As you know, one of the issues that the Presidential 
Commission felt strongly about is that the Postal Service needs 
to ``constructively address the fact that many of our Nation's 
post offices are no longer necessary to the fulfillment of the 
universal service obligation.''
    I think all of us recognize that there are times when 
consolidation can take place but I also know that those post 
offices are often essential to elderly people and also play a 
role as being the center of the community in a lot of small 
towns.
    The Commission suggested that existing laws limiting the 
Postal Service's ability to close post offices should be 
repealed. Given your many years of experience, including as a 
postmaster in a small community, could you comment on whether 
you believe the current process for closing or consolidating 
post offices works well? And how do we balance the need to 
provide universal service with the goal of making the Postal 
Service more efficient?
    Mr. Tisdale. I think that first of all I would say we 
probably need to study that issue a little more. But having 
been in a small town and watched the people in the communities 
around Smithville and how they respond to the Postal Service, I 
have to agree that the post offices in those small communities 
are very vital. They not only serve as a focal point for the 
community but they give the community an identity. To have that 
post office there and their own zip code just means a lot to 
those people.
    I think during the time that I was in Smithville there were 
two offices between Smithville and the next larger town over, 
which was La Grange, that were closed and I remember the people 
coming in and complaining about those offices being closed. 
Even though after about a year or so they adjusted to it, they 
really did not want those offices closed.
    The same services were available and it was within a short 
drive for them, 10 miles or so, and I realize in the city we 
may drive 5 or 10 miles without thinking about it, but when you 
are in a rural community and, as you said, if it is an elderly 
person or a person with some type of handicap, then going 10 
miles to the post office presents a real problem. But the 
people did adjust and they seemed to accept it after a period 
of time. But I do believe that before we close any small office 
we need to go to that community and talk to the people there 
and certainly get their input and that should be a 
consideration before that happens.
    Chairman Collins. Virtually every witness who has come 
before this Committee has testified that the current rate-
making process before the Commission is far too lengthy and 
litigious. The Commission has recommended a far more 
streamlined process that would give the Postal Service the 
ability to establish its rates within a cap and then have an 
after-the-fact review that would be available if a complaint 
was filed.
    There are some who believe that the current process, while 
too long and while too litigious, works well to surface all of 
the issues and ensure that the best information is available. 
Do you have any thoughts on the rate-making process? And do you 
have an opinion in particular about the issue of having an 
after-the-fact review of rates?
    Mr. Tisdale. I think an after-the-fact review of the rate-
setting process would be very bad. The Postal Service goes 
through a lot of trouble making sure that people are aware of 
rates and changing the rates, both in stamp machines and other 
places, and to have an after-the-fact review that goes back and 
possibly changes the rates again I think would really be bad 
for the agency.
    I think that to speed up the process, the current process, 
some of the time limits might be reset so that it does not take 
quite as long, but some of the other issues I would reserve a 
comment on until I was actually there and had a chance to look 
at that a little closer.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Mr. Tisdale, I was very impressed by the introduction of 
the congresswoman, which was personal and warm about her 
admiration for you. I was also impressed by the experience you 
have had in the Postal Service. I guess anybody who is in it 
from being a letter carrier is from the bottom up here. You 
have had that experience, and you have served the people of 
Texas very well as a letter carrier, postal supervisor, and 
postmaster. So you can tell by the comments we have made that 
we are looking at your experience to help the Postal Service.
    I appreciated the detailed explanation of your long career 
with the Postal Service. I am saying this because my brother 
was in the Postal Service for more than 40 years and he started 
as a letter carrier. So I have feelings about the Postal 
Service.
    But given your experience with alternative dispute 
resolution, which is called ADR, how would you incorporate more 
ADR into the employee grievance process?
    Mr. Tisdale. I do not believe that all of the unions that 
work with the Postal Service are currently using alternative 
dispute resolution and I think the best thing to do at this 
point--I know NALC is heavily involved and I believe the mail 
handlers are involved but I do not think the APWU is involved. 
I would certainly want to encourage them to become involved and 
to use the alternative dispute resolution. I think the success 
that the NALC has shown in that process should be held up as a 
model for APWU and maybe they would see the light.
    Senator Akaka. As a retired postmaster you have had 
opportunities to be involved with the closing of post offices. 
As Senator Collins noted, these facilities may be the only 
contact many citizens have with the Federal Government. In your 
comments to her, you discuss post office closings and the need 
to involve citizens. How would you do this?
    Mr. Tisdale. I would go to the community and set up a 
meeting with the community and talk to them about it, allow 
them to come in and express their feelings concerning the 
closing and the availability of the facilities.
    Senator Akaka. I was especially pleased that the 
President's Commission rejected privatizing the Postal Service. 
Would you share with us your views on privatizing the U.S. 
Postal Service?
    Mr. Tisdale. I think the U.S. Postal Service does a 
fantastic job and the Postal Service goes to places and 
delivers mail to people that are not reached by private 
enterprise at this point. If you look at some of the places 
that people like UPS do not go for reasons of--well, I guess 
the reasons are their own but the Postal Service does, then it 
is clearly a good reason for not privatizing it. I think 
private enterprise would cut out a number of services that the 
Postal Service offers as a service to the general public and I 
think that access to the services would be severely limited 
under private enterprise.
    Senator Akaka. Madam Chairman, let me ask my final 
question.
    Mr. Tisdale, do you believe that the PRC should have a 
stronger role in establishing performance standards for postal 
products and services and for monitoring the Postal Service's 
results in meeting these standards?
    Mr. Tisdale. I think the Postal Service already has in 
place internal monitoring processes and that those should be 
the Postal Service's concern. I think as an oversight 
committee, the PRC should take a look at it from time to time 
but basically I think the agency itself needs to monitor that.
    Senator Akaka. Thank you very much, Madam Chairman.
    Chairman Collins. Thank you, Senator. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman.
    This is an important post that has to be filled and I think 
we have a really good candidate and I congratulate you, Mr. 
Tisdale, because I would say that in these days of partisanship 
that if your cause is sponsored by Congresswoman Johnson and 
Senator Tom Daschle and can still be nominated by President 
Bush, you have to be pretty good. I would say that covers a 
fair number of bases.
    So we are pleased to see you here. I like your experience. 
I think that having been postmaster in such a small town, where 
I am sure you knew most, if not all, of the people who you 
served, I think that is a particularly good way to view things 
because it attaches faces and feelings and concerns when you 
are in that small town situation. You get to kind of feel the 
flesh and it is a very important thing, I suppose, to the 
experience that one typically sees in a larger city where 
people become relatively faceless. So I think that is going to 
be a very good background for you to call upon as you try to 
resolve some of the difficult decisions that you are going to 
be making with the Postal Regulatory Board, assuming that that 
gets to be the case.
    How firmly do you support this enormous expansion of powers 
to a three-person board? Do you think that is a good idea, to 
be able to really understand what the problems are not just of 
the addressee but the employee and the enormous role that the 
post office has to bringing our country together? It precedes 
any of the now-sophisticated communication networks. People 
judge a lot about government when they see how the mail 
department, how the postman himself works.
    So what do you think about this expansion of powers into 
this Postal Regulatory Board?
    Mr. Tisdale. I think the expansion of the authorities, it 
is probably a good thing in many areas. I tend to question 
whether or not three people unattached to the agency could 
really have the type of oversight that they would need or the 
real understanding of the agency that they would need in order 
to have that expanded authority.
    I would hope that in the interim the Postal Rate Commission 
as it presently exists would be given some of that expanded 
authority and that a smooth transition would be able to be had.
    Senator Lautenberg. How about rate-setting? Should the 
Board of Governors continue to have a role in postage rate-
setting? What kind of changes would you think would be 
appropriate for the rate-setting process?
    Mr. Tisdale. For the rate-setting process I think the most 
immediate role would probably be to shorten the process, to 
maybe shorten some of the time limits that are involved at 
present. While I do not think it is a good idea to have an 
after-the-fact review of the rates, I do think it is a good 
idea to have the Postal Service have more autonomy in setting 
rates.
    Senator Lautenberg. Madam Chairman, I think we have an 
excellent candidate. I hope that we will be able to present a 
clear picture of all of the responsibilities that are going to 
evolve with the Postal Regulatory Board and would tell you, Mr. 
Tisdale, that it would be a huge job. This is not going to be a 
walk in the park, as you probably know. Maybe even a walk on 
the toughest route that you have ever walked. Thank you very 
much.
    Mr. Tisdale. I would just comment that I have been involved 
in change in the Postal Service on a number of issues and I do 
understand the agency and the dynamics within the agency when 
you are talking about changing something that has gone on for 
years.
    Senator Lautenberg. Thank you.
    Chairman Collins. Thank you.
    Mr. Tisdale, I want to thank you for appearing before the 
Committee today. I certainly agree with my colleagues that you 
are certainly worthy of confirmation and I am pleased to 
support your nomination for this very important position at a 
time of tremendous transition for the Postal Service.
    Without objection, the record will be kept open until 5 
p.m. today for the submission of any additional written 
questions or statements for the record.
    Thank you very much for appearing today and this hearing is 
now adjourned.
    [Whereupon, at 10:35 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4484.001

[GRAPHIC] [TIFF OMITTED] T4484.002

[GRAPHIC] [TIFF OMITTED] T4484.003

[GRAPHIC] [TIFF OMITTED] T4484.004

[GRAPHIC] [TIFF OMITTED] T4484.005

[GRAPHIC] [TIFF OMITTED] T4484.006

[GRAPHIC] [TIFF OMITTED] T4484.007

[GRAPHIC] [TIFF OMITTED] T4484.008

[GRAPHIC] [TIFF OMITTED] T4484.009

[GRAPHIC] [TIFF OMITTED] T4484.010

[GRAPHIC] [TIFF OMITTED] T4484.011

[GRAPHIC] [TIFF OMITTED] T4484.012

                                 <all>

</pre></body></html>
